NO. 19-891

In the
6uprente Court of the ?Ilittiteb 6tate5
41, 611000010 I III

JOHN LEHMANN,
Petitioner,
v.
NICOLE HAIMS,
Respondent.

On Petition for Writ of Certiorari to the
New York Court of Appeals
REPLY BRIEF OF PETITIONER

JOHN LEHMANN, ESQ
PETITIONER PRO SE
15 BANK STREET, APT 109D
WHITE PLAINS, NY 10606
(703) 597-2825
JC_LEHMANNJR@MSN.COM

APRIL 1, 2020
SUPREME COURT PRESS

•

(888) 958-5705

•

BOSTON, MASSACHUSETTS

1

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES
REPLY BRIEF OF PETITIONER

iii
1

SUMMARY OF THE CONSTITUTIONAL ISSUES
IN THIS MATTER

1

MANY OF HAIMS' FACTS IN HER OPPOSITION
ARE NOT EVIDENCED IN THE RECORD OR ARE
CREDIBLE

3

LEHMANN SOUGHT TO PROTECT HIS AND HIS
DAUGHTERS' CONSTITUTIONAL RIGHTS IN THE
NEW YORK COURTS

4

CASELAW CITED TO BY HAIMS IS DISGUISABLE

5

HAIMS' CLAIM THAT "CLEAR AND CONVINCING" IS NOT THE STANDARD OF
PROOF IN THIS LITIGATION
10
THIS MATTER HAS BEEN FULLY ADJUDICATED
BY THE NEW YORK COURTS
11
CONCLUSION

12

11

TABLE OF AUTHORITIES
Page
CASES
Bailey v. Carr,
125 A.D.3d 853 (2nd Dept. 2015)

8

Curry v. Ashby,
129 A.D.2d 310 (1st Dept 1987)

9

Mary H v Helen P,
131 A.D.2d 571 (2nd Dept 1987)

9

Meyer v. Nebraska,
262 U.S. 390, 401, 43 S.Ct. 625,
67 L.Ed. 1042 (1923)

6, 7

Parham v. J. R.,
442 U.S. 584, 602, 99 S.Ct. 2493,
61 L.Ed.2d 101 (1979)

7

Petta way v. Savage,
87 A.D.3d 796, 798 (3rd Dept. 2011)

8

Quilloin v. Walcott,
434 U.S. 246, 255, 98 S.Ct. 549, 54
L.Ed.2d 511 (1978)

7

Reno v. Flores,
507 U.S. 292, 113 S.Ct. 1439,
123 L.Ed.2d 1 (1993)

6

Rodriguez v Delacruz-Swan,
100 A.D.3d 1286 (3rd Dept. 2012)

10

Rodriguez v. Rodriguez,
150 A.D.3d 1016 (2nd Dept 2017)

8

Santosky v. Kramer,
455 U.S. 745 (1982)

7, 10

111

TABLE OF AUTHORITIES—Continued
Page
Stanley v. Illinois,
405 U.S. 645, 92 S.Ct. 1208,
31 L.Ed.2d 551 (1972)

6

Suarez v Williams,
12 N.Y.3d 440 (2015)

9

Washington v. Glucksberg,
521 U.S. 702, 117 S.Ct. 2258 (1997).

5

Wisconsin v. Yoder,
406 U.S. 205 (1972)

6

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. I

1, 3, 4, 12

U.S. Const. amend. V

1, 3, 4, 12

U.S. Const., amend. XIV

passim

1

REPLY BRIEF OF PETITIONER
I.

SUMMARY OF THE CONSTITUTIONAL ISSUES IN THIS
MATTER.

This matter clearly involves very significant constitutional issues regarding due process and parental
rights that are guaranteed by U.S. Const, amend. I, V,
and XIV. In each substantive brief or letter regarding
jurisdiction that John Lehmann ("Lehmann") submitted to the New York courts in this matter, he asserted
both his and his daughter's ("child or Lehmann's
daughter") constitutional rights. These rights include
a parent to associate with their natural child (i.e.
physical custody), determine what religious faith the
child will be raised in, make educational decisions for
the child, make legal decisions for the child, and
make medical decisions for the child. Additionally,
the significant violations of due process of the law in
custody proceedings in New York that Lehmann and
his daughter have suffered.
This matter is of significant importance to the
federal government and all 50 states with regard to
the use of objective scientific testing in legal proceedings. In this case, over the course of the Family
Court ("FC") litigation, which lasted nearly two-anda half years, Lehmann took over 100 tests of hair,
urine, and breathalyzers ordered by the FC or its
appointees that were all negative and had also been
an active parent prior to the FC custody petition
making him conclusively a fit parent. Yet were these
things were essentially ignored by the New York courts.
Accordingly, New York State is no longer relying on

2

these objective scientific tests in civil or criminal
matters, as well as unrefuted testimony regarding
the parent's parenting of his/her natural child. This
same decision-making by courts across the country
would have an enormous impact in criminal matters
(e.g. DUI, drunk in public, domestic violence, possession or distribution of illegal drugs, and even in DNA
evidence related cases), as well as in child custody
and neglect matters.
The pace of this litigation has been painfully slow,
now over four-and a-half years, during which the New
York courts made significant factual and legal errors
unsupported by the record and precedent. Since October of 2017, Lehmann has only been able to see his
daughter for approximately an hour, or earlier an
hour-an-half each week. This is due to the very high
cost of court mandated supervision. Since October
2017 to the present this supervisor has been (previously Carmen Candelario) DR Benna Strober (PhD)
who Lehmann must pay $250 per hour, in addition to
his child support of approximately $2,400 per month
(17 percent of his gross income, plus any medical
costs—after taxes over 30 percent of his gross income
and not even being able to claim the child as a
dependent for tax purposes). Additionally, Lehmann's
daughter's stepmother and paternal grandparents
were effectively shunned from contact with the child
(or even hidden as her stepmother) was at Nicole
Haims' ("Haims") direction during most of the record
period. Haims claims that Lehmann would not foster
a relationship of Lehmann's daughter with her family
while nearly excluding any contact from his family.
Prior to the death of the child's mother / Lehmann's
then legal spouse, Lehmann either lived with the child

3

or saw her three to five times a week for several
hours and cared for her.
As discussed in Lehmann's Petition for the Writ
for Certiorari ("Petition"), these are all violations of
the U.S. Const, amend. I, V, and XIV. Certiorari should
be granted, and Lehmann awarded sole physical and
legal custody of his daughter away from Haims, the
child's maternal aunt, who did not have a special
relationship with the child until her sister's death—
except for, as she testified to, knitting a hat and poncho
for the child.
II. MANY OF HALMS' FACTS IN HER OPPOSITION ARE
NOT EVIDENCED IN THE RECORD OR ARE CREDIBLE.

Judge Hahn, the FC Judge, did not include any
citations from the actual record to support her Decision and Order ("D&O"). In Lehmann's Petition he
provided this Court with citations to transcripts and
exhibits in the record (see Petition for citations for
this reply's correct facts). Haims' Opposition cited to
the D&O over 40 times in her fact section, while only
citing to the actual transcript twice. The facts in the
Petition are verified via transcripts and exhibits,
Haims' are not, and include many inaccuracies based
on the un-citationed FC D&O. This was a split the baby
situation. Why would a judge give Lehmann unsupervised visitation with his daughter every weekend and
most holidays if she believed he was incapable of
taking care of the child—especially given the FC Judges
facts enumerated in the D&O? The vast majority of
Haims' facts are disproven buy Lehmann as cited to
in the Petition.

4

III. LEHMANN SOUGHT TO PROTECT HIS AND HIS
DAUGHTERS' CONSTITUTIONAL RIGHTS IN THE NEW
YORK COURTS.
Lehmann Preserved the argument of his and his
daughters' constitutional rights granted by U.S. Const.,
amend. I, V, and XIV in each of his substantive briefs/
letters in the New York courts, and they were ignored
in opinions (Lehmann's daughter's name has been
removed):
Final Family Court Brief p. 27)
Lehmann's and [the child's] Constitutionally
Protected Fundamental Rights While of the
utmost importance, this case is not just about
where Olivia will live and who will care for
her on a daily basis, at its core this case
implicates and threatens [the child's] and
Lehmann's most fundamental constitutionally protected rights . . . .
AD2D Brief (p. 46)
There is not a "no harm, no foul" rule in
New York by which the non-parent gets to
keep custody of the child, simply because the
FC perceives that the parent's relationship
with the child will not be harmed. Such a
legal principal not only violates New York
law, but also the fundamental constitutional rights of both [the child] and Lehmann.
Moreover, the [child]-Lehmann relationship
would in fact certainly suffer under the
custody and visitation terms of the D&O, as
compared to Lehmann being awarded sole
custody of his daughter (e.g. he would see,
parent, guide, care for, make all decisions

5

for, and interact with her daily, not just on
weekends) . . . .
New York Court of Appeals Letter regarding jurisdiction (June 21, 2019)
In response to your recent correspondence, this letter
will provide information and case law on whether my
petition was final and within the Court's jurisdictional boundaries, based on both the New York and
the United States' Constitutions. The lower courts
misinterpreted the facts in the record and misinterpreted the law. . . .
IV. CASELAW CITED TO BY HALMS IS DISGUISABLE.

This case does involve settled law as identified
in Lehmann's AD2D briefs and his Petition, while
Haims cited to distinguishable case law. Many of
these cases were addressed in the earlier by Lehmann's
Petition and will not be repeated.
Haims' cited to the J. Steven's dissent in Troxel
v. Grandville, 530 U.S. 57 (2000), not the primary J.
O'Connor authored opinion, which included the Court's
juris prudence on parental and children's rights that
stated:
The Fourteenth Amendment provides that
no State shall 'deprive any person of life,
liberty, or property, without due process of
law.' We have long recognized that the
Amendment's Due Process Clause, like its
Fifth Amendment counterpart, "guarantees
more than fair process.' Washington v. Glucksberg, 521 U.S. 702, 719, 117 S.Ct. 2258 (1997).
The Clause also includes a substantive component that 'provides heightened protection

6

against government interference with certain
fundamental rights and liberty interests.'
Id., at 720, 117 S.Ct. 2258; see also Reno v.
Flores, 507 U.S. 292, 301-302, 113 S.Ct. 1439,
123 L.Ed.2d 1 (1993).
The liberty interest at issue in this case—
the interest of parents in the care, custody,
and control of their children—is perhaps the
oldest of the fundamental liberty interests
recognized by this Court. More than 75
years ago, in Meyer v. Nebraska, 262 U.S.
390, 399, 401, 43 S.Ct. 625, 67 L.Ed. 1042
(1923), we held that the 'liberty' protected
by the Due Process Clause includes the right
of parents to 'establish a home and bring up
children' and 'to control the education of
their own.' . . .
[W]e have recognized the fundamental right
of parents to make decisions concerning the
care, custody, and control of their children.
See, e.g., Stanley v. Illinois; 405 U.S. 645, 651,
92 S.Ct. 1208, 31 L.Ed.2d 551 (1972) (It is
plain that the interest of a parent in the
companionship, care, custody, and management of his or her children 'come [s] to this
Court with a momentum for respect lacking
when appeal is made to liberties which derive
merely from shifting economic arrangements'
(citation omitted)); Wisconsin v. Yoder, 406
U.S. 205, 232, 92 S.Ct. 1526, 32 L.Ed.2d 15
(1972) (The history and culture of Western
civilization reflect a strong tradition of
parental concern for the nurture and upbringing of their children. This primary role of the

7

parents in the upbringing of their children
is now established beyond debate as an
enduring American tradition'); Quilloin v.
Walcott, 434 U.S. 246, 255, 98 S.Ct. 549, 54
L.Ed.2d 511 (1978) ('We have recognized on
numerous occasions that the relationship
between parent and child is constitutionally protected'); Parham v. J. R., 442 U.S. 584,
602, 99 S.Ct. 2493, 61 L.Ed.2d 101 (1979)
(Our jurisprudence historically has reflected
Western civilization concepts of the family
as a unit with broad parental authority over
minor children. Our cases have consistently
followed that course"); Santosky v. Kramer,
455 U.S. 745, 753, 102 S.Ct. 1388, 71 L.Ed.2d
599 (1982) (discussing 'Wile fundamental
liberty interest of natural parents in the
care, custody, and management of their
child'); Glucksberg, supra, at 720, 117 S.Ct.
2258 (In a long line of cases, we have held
that, in addition to the specific freedoms
protected by the Bill of Rights, the 'liberty'
specially protected by the Due Process
Clause includes the righ[t] . . . to direct the
education and upbringing of one's children'
(citing Meyer and Pierce)). In light of this
extensive precedent, it cannot now be doubted
that the Due Process Clause of the Fourteenth Amendment protects the fundamental
right of parents to make decisions concerning the care, custody, and control of their
children.
Haims' cited to the J Stevens dissent, in which even
he stated that:

8

To remain effective, the Supreme Court must
continue to decide only those cases which
present questions whose resolution will have
immediate importance far beyond the particular facts and parties involved.
As noted above, this matter regards the nation-wide
issues of the use of forensic objective scientific testing
(both federal and states) and parental rights (i.e. who
is an unfit parent, as it differs from state to state).
In Pettaway v. Savage, 87 A.D.3d 796, 798 (3rd
Dept. 2011) the court found that extraordinary circumstances existed where "prior to the mother's death,
the father failed to play any significant role in the
child's life, by visiting inconsistently and failed to
attend to the child's emotional needs having "emotionally abandoned' the child). That is not the case
here. Lehmann cared for his daughter along with her
mother. Additionally, any psychological bonding with
a non-parent during the litigation is irrelevant. Bailey
v. Carr, 125 A.D.3d 853, 854 (2nd Dept. 2015). However, the loving bond between the parent and nonparent is clearly relevant to an extraordinary circumstances determination and must be considered.
Ambridge v. Cambridge, 13 A.D.3d 443, 444 (2nd Dept.
2004). It is clear that Lehmann's daughter and her
entire paternal family love each other or, Lehmann
would not have gone to school events and parent
teacher conferences, as well as he and her stepmother
seeing or communicating with her as much as possible
when aloud by Haims.
In Rodriguez v. Rodriguez, 150 A.D.3d 1016 (2nd
Dept. 2017), the mother admitted that she could not
care for the child, that she had not acted as a parent
since [the child] was born, and that she had provided

9

no support for him. Here Lehmann assumed a parental
role in all manners for three-and-a half years, and has
been litigating to get his daughter back since then.
In Curry v. Ashby, 129 A.D.2d 310 (1st Dept. 1987)
is irrelevant, because Lehmann's daughter did not
have a pre-existing close relationship with anyone in
the Haims household prior to her mother's death.
In Mary H v Helen P, 131 A.D.2d 571 (2nd Dept.
1987) is irrelevant, because the mother abused the
child and this has certainly never occurred with
Lehmann's daughter or in the record.
Suarez v Williams, 12 N.Y.3d 440 (2015) is
irrelevant, because Haims is not a grandparent. (see
N.Y. Domestic Relations Law § 72(2)). The mother
gave the child to the grandparents, days after birth,
she was ten at the time of the decision. Lehmann
allowed Haims to house his child for three months,
until the school year, when he had obtained a two
bedroom apartment, and even when Lehmann had
already enrolled the child in preschool in the area of
his new home in August 2015. He was able to visit
his daughter for eight hours per week (based on the
distance from Manhattan to Pound Ridge where
Haims lives). Lehmann was to have custody of his
child after approximately three months. Then Haims
filed her FC Petition for custody. Since then it has
only been the litigation that has separated them.
With Lehmann drafting 95 percent of the written
briefs and outlines of witness examination questions
for his attorney, when he could not afford legal
services to begin with, and ultimately her stepmother
has had to endure this loss of time when both of
Lehman and her were endeavoring, along with the

10

paternal family, to have custody of Lehmann's natural
daughter.
Rodriguez v. Delacruz-Swan, 100 A.D.3d 1286
(3rd Dept. 2012) is irrelevant, because the mother
violated the custody order by relocating to North
Carolina without providing the natural father with
an address and telephone number where the child
could be reached. Additionally, she was intoxicated
while caring for the child and she admitted such.
There is nothing in the record stating that Lehmann
relocated (after the move to the two bedroom apartment
in White Plains in August 2015) or being intoxicated
while caring for his daughter alone.
V. HALMS' CLAIM THAT "CLEAR AND CONVINCING"
IS NOT THE STANDARD OF PROOF IN THIS
LITIGATION.
The "clear and convincing" standard is appropriate in custody cases where it is between a natural
parent and a non-parent in order to provide adequate
due process to the natural parent. This Court has
ruled that this is the standard in permanent child
neglect cases. Santosky, 455 U.S. at 753. Such a
standard should apply here where Lehmann now gets
one hour per week with his daughter, with purported
therapy—we actually simply play together while the
therapist sits at her desk. Additionally, the child's
stepmother was hidden from her for six months after
the wedding (which of course did not participate in).
Moreover, Lehmann's parents were shunned by Haims
after a call on Valentine's Day 2017, because they,
like Lehmann, had not "accepted" their granddaughter's
life with the Haims as it existed then. For all intents
and purposes Lehmann's daughter has been perman-

11

ently walled off from her father and the paternal side
of the family based on Haims' decisions.
VI. THIS MATTER HAS BEEN FULLY ADJUDICATED BY
THE NEW YORK COURTS.

This matter was remanded in 2019. It was finalized in 2019 in FC, before January 13, 2020 when Lehmann petitioned this Court, so the decision and order
should now be in the record—in print or transcript.
Haims' primary counsel was at the hearing, as was
my over 14-year teacher wife and the child's stepgrandmother who has never had an opportunity to even
communicate with Lehmann's daughter, yet still gives
her very thoughtful holiday presents like Lehmann's
parents in Ohio do as well.

12

CONCLUSION
This is a matter of national importance. Not
only was Lehmann's daughter from him. The entire
paternal family (including step-family) have been
blocked from communications by Haims. And now due
to the virus, Lehmann can only speak to his daughter
once a week, with supervision at $250 per hour. Violating Lehmann and his daughter's due process and
parental rights that are guaranteed by U.S. Const,
amend. I, V, and XIV. Please accept this Petition.
Respectfully submitted,
JOHN LEHMANN, ESQ.
PETITIONER PRO SE
15 BANK STREET, APT 109D
WHITE PLAINS, NY 10606
(703) 597-2825
JC_LEHMANNJR@MSN.COM
APRIL 1, 2020

SUPREME COURT
PRESS

